                                              NATIONAL SCIENCE FOUNDATION
                                                    4201 WILSON BOULEVARD
                                                   ARLINGTON, VIRGINIA 22230




             OFFICE OF
        INSPECTOR GENERAL



MEMOMNDUM

Date:               March 30,2000

To:                 File No. I97070033

From:

Via:                                                                                  estigations

Re:


Background



                                                              suse of NSF grant funds in areas of payroll,
                                                              ior approval (Please see Attachment 1 for
                                                                                    r testimony in the June 27
                                                                                    The allegations focused
                                                                                     ,for which she was listed




The NSF awarded eight grants to the i n c e 1994, with 3 grants' that are currently active or

          'The hearings took place to decide whether or not     resigned f r o m l w i t h good cause and should be
disqualified from certain benefits.

           Audit Report No.           p. 1




                (703)306-2100 OIG Anonymous Hotline (800)428-2189 http://www.nsf.gov/oig/oig
                                    Electronic mail hotline: oig@nsf.gov
                                                                                         =
  awaiting final reports. From 1989 to present the total grant money of the 9 grants awarded to
                                                                                                loseout
                                                                                                 *of2



s         $3,357,050.


 Investigation




On January 27, 1999 OIG                                          with OIG Audit of the records
received and preliminary                                           periods of project latency and
lack of compliance to our                                           an on-site review of the
allegations
    -        in July. In                                             which the OIG Special
                    numerous interviews of current
         staff and the OIG Auditor conducted a ju
                         The OIG Auditor completed the on-site review o             r a second site
visit in late July.

 Findings

The OIG Auditor released a report based on our review o f m w i t h significant findings of
           4~in questioned costs related to direct costs, indirect costs, and cost sharing in the
following categories: unsupported salary and related fringe benefit, unallowable participant
support costs, unsupported subcontract costs, indirect costs related to questioned direct costs;
costs claimed in excess of the allowable amount, and cost sharing.

Although we noted several instances of non-compliance and internal control weaknesses, there
was no evidence of criminal intent and agreement with the complainant's labor and equipment-
mischarging allegations. Therefore, OIG Investigations defers the matter to be handled through
the Audit resolution process and has recommended administrative sanctions and parole be
enforced. The case is closed.



         See Audit Review of   prepared byP           - 3.
